         EDWARD BYRNE MEMORIAL

JUSTICE ASSISTANCE GRANT PROGRAM GRANTS

         AWARDED TO THE FLORIDA

     DEPARTMENT OF LAW ENFORCEMENT

          TALLAHASSEE, FLORIDA


        U.S. Department of Justice

      Office of the Inspector General

               Audit Division



       Audit Report GR-40-10-004

               July 2010

                    EDWARD BYRNE MEMORIAL

           JUSTICE ASSISTANCE GRANT PROGRAM GRANTS

                    AWARDED TO THE FLORIDA

                DEPARTMENT OF LAW ENFORCEMENT


                          EXECUTIVE SUMMARY


       The Office of the Inspector General, Audit Division, has completed an
audit of the Edward Byrne Memorial Justice Assistance Grant (JAG) Program
Grant Numbers 2008-DJ-BX-0072 and 2008-DJ-BX-0755 with a combined
amount of $7,369,041 and the Recovery Act Edward Byrne Memorial Justice
Assistance Grant Program, Grant Number 2009-SU-B9-0021 in the amount
of $81,537,096 awarded by the Office of Justice Programs (OJP), Bureau of
Justice Assistance (BJA), to the Florida Department of Law Enforcement
(FDLE). Between October 2005 and March 2009, OJP awarded the FDLE six
grants totaling $140,693,262. The FDLE’s Office of Criminal Justice Grants
is responsible for administering the grant awards.

       The purpose of the JAG program is to allow states, tribes, and local
governments to support a broad range of activities to prevent and control
crime based on their own local needs and conditions. JAG funds can be used
for state and local initiatives, technical assistance, training, personnel,
equipment, supplies, contractual support, and information systems for
criminal justice for any one or more of the following purpose areas:

  • law enforcement programs;

  • prosecution and court programs;

  • prevention and education programs;

  • corrections and community corrections programs;

  • drug treatment programs;

  • planning, evaluation, and technology improvement programs; and

  • crime victim and witness programs (other than compensation).
Recovery Act

      On February 17, 2009, the President signed into law the American
Recovery and Reinvestment Act of 2009 (Recovery Act). The purposes of
the Recovery Act are to: (1) preserve and create jobs and promote
economic recovery; (2) assist those most impacted by the recession;
(3) provide investments needed to increase economic efficiency by spurring
technological advances in science and health; (4) invest in transportation,
environmental protection, and other infrastructure that will provide long
term economic benefits; and (5) stabilize state and local government
budgets, in order to minimize and avoid reductions in essential services and
counterproductive state and local tax increases.

      Through Recovery Act JAG funding, the Department of Justice (DOJ)
focused support on all components of the criminal justice system, including
multi-jurisdictional drug and gang task forces; crime prevention and
domestic violence programs; and courts, corrections, treatment, and justice
information sharing initiatives. Recovery Act JAG funded projects could
address crime by providing services directly to individuals and communities
and by improving the effectiveness and efficiency of criminal justice
systems, processes, and procedures.

Audit Results

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grants were supported; allowable; and in
accordance with applicable laws, regulations, guidelines, terms and
conditions of the grants, and to determine program performance and
accomplishments. The objective of our audit was to review performance in
the following areas: (1) grant requirements; (2) internal control
environment; (3) cash management; (4) program income; (5) grant
expenditures; (6) property management; (7) supplanting; (8) management
of subrecipients and contractors; (9) Financial Status Reports (FSR),
Progress Reports, and Recovery Act Reports; and (10) program performance
and accomplishments. We determined that property management, and
contractors were not applicable to these grants.

      As shown in Exhibit 1, the FDLE was awarded a total of $140,693,262
to implement the grant program. However, based on grant activity, we
limited our audit to $88,906,137 in funding awarded under
Grant Numbers 2008-DJ-BX-0072, 2008-DJ-BX-0755, and
2009-SU-B9-0021.



                                      ii
  EXHIBIT 1.	 EDWARD BYRNE MEMORIAL JUSTICE ASSISTANCE
              GRANT PROGRAM GRANTS AWARDED TO THE
              FLORIDA DEPARTMENT OF LAW ENFORCEMENT
                               AWARD            AWARD
        GRANT AWARD          START DATE        END DATE    AWARD AMOUNT
      2006-DJ-BX-0036        10/01/2005     09/30/2009     $   12,402,693
      2007-DJ-BX-0093        10/01/2006     09/30/2010         18,962,940
      2008-DJ-BX-0072        10/01/2007     09/30/2011          6,690,822
      2008-DJ-BX-0755        10/01/2007     09/30/2011            678,219
      2009-DJ-BX-1077        10/01/2008     09/30/2012         20,421,492
      2009-SU-B9-0021        03/01/2009     02/28/2013         81,537,096

                           Total:                          $140,693,262
  Source: OJP Grants Management System (GMS)

      We examined the FDLE’s accounting records, FSRs, Progress Reports,
Recovery Act Reports, and operating policies and procedures and found the
following.

  •	 The financial management system provides for segregation of duties,
     transaction traceability, system security, and limited access.

  •	 The FDLE accounted for and reported program income accurately.

  •	 Transactions reviewed were properly authorized, classified, supported,
     and charged to the grants.

  •	 All costs associated with payroll and fringe benefits for the pay periods
     reviewed were supported and reasonable.

  •	 The FSRs reviewed under the grants were generally accurate and
     timely except for one report.

  •	 The FDLE’s monitoring activities and management of subrecipient files
     appeared sufficient.

  •	 Progress Reports were generally accurate in reporting grant activity
     and filed timely.

  •	 The Recovery Act Report covering the period October 1, 2009, through
     December 31, 2009, was accurate and timely submitted.

  •	 The FDLE addressed the program outcomes for the JAG and Recovery
     Act JAG awards.

     These items are discussed in detail in the Findings section of the
                                      iii
report. Our audit objectives, scope, and methodology are discussed in the
Appendix.




                                    iv

                                  TABLE OF CONTENTS


INTRODUCTION ....................................................................... 1

     Recovery Act ........................................................................ 2

     Audit Purpose ....................................................................... 2

     Background.......................................................................... 3

     OIG Audit Approach .............................................................. 4

FINDINGS ……………………………………………………………………… 5

     Internal Control Environment ................................................. 5

          Single Audit.................................................................... 5

          Financial Management System.......................................... 5

          Preparation for Recovery Act Funds ................................... 6

     Drawdowns .......................................................................... 6

     Program Income ................................................................... 7

     Grant Expenditures ............................................................... 7

          Personnel Expenses......................................................... 8

          Other Direct Costs........................................................... 9

          Indirect Costs ................................................................. 9

     Supplanting.......................................................................... 9

     Management of Subrecipients................................................10

          Solicitation Process ........................................................10

          Awards Process..............................................................11

          Training and Technical Assistance ....................................12

          Management of Funds ....................................................13

          Monitoring.....................................................................13

     Reports ..............................................................................14

          Subrecipient Reports ......................................................14

          Financial Status Reports..................................................14

          Annual Progress Reports .................................................15

          Quarterly Recovery Act Reports .......................................15

     Program Performance and Accomplishments ...........................17

     Conclusion ..........................................................................18

APPENDIX I

OBJECTIVES, SCOPE, AND METHODOLOGY ............................. 20

APPENDIX II

OFFICE OF JUSTICE PROGRAMS'

RESPONSE TO THE DRAFT REPORT ......................................... 22


APPENDIX III

OFFICE OF THE INSPECTOR GENERAL

ANALYIS AND SUMMARY OF ACTIONS

NECESSARY TO CLOSE REPORT............................................... 24

                     EDWARD BYRNE MEMORIAL

                JUSTICE ASSISTANCE GRANT PROGRAM

                        GRANTS AWARDED TO

           THE FLORIDA DEPARTMENT OF LAW ENFORCEMENT

                       TALLAHASSEE, FLORIDA


                                   INTRODUCTION


       The Office of the Inspector General, Audit Division, has completed an
audit of the Edward Byrne Memorial Justice Assistance Grant (JAG) Program
State Solicitation, Grant Numbers 2008-DJ-BX-0072 and 2008-DJ-BX-0755
totaling $7,369,041, and the Recovery Act Edward Byrne Memorial Justice
Assistance Grant Program State Solicitation, Grant Number
2009-SU-B9-0021 in the amount of $81,537,096, awarded by the Office of
Justice Programs (OJP), Bureau of Justice Assistance (BJA), to the Florida
Department of Law Enforcement (FDLE). 1 Through its Office of Criminal
Justice Grants, the FDLE is responsible for administering the grant awards.

       The JAG Program is a formula grant program in which the 50 states,
the District of Columbia, American Samoa, Guam, the Northern Mariana
Islands, Puerto Rico, and the U.S. Virgin Islands are eligible to apply. 2 The
purpose of the JAG Program is to allow states, tribes, and local governments
to support a broad range of activities to prevent and control crime based on
their own local needs and conditions. JAG funds can be used for state and
local initiatives, technical assistance, training, personnel, equipment,
supplies, contractual support, and information systems for criminal justice
for any one or more of the following purpose areas:

   • law enforcement programs;

   • prosecution and court programs;

   • prevention and education programs;

   • corrections and community corrections programs;




       1
        Since fiscal year (FY) 2006, BJA has awarded $140,693,262 in Edward Byrne
Memorial Justice Assistance Grant funds to the Florida Department of Law Enforcement.
       2
           Formula grant programs are noncompetitive awards distributed to states based on a
specific funding formula. Byrne formula awards are based on states’ or territories’ share of
violent crime and population.

                                             1

  • drug treatment programs;

  • planning, evaluation, and technology improvement programs; and

  • crime victim and witness programs (other than compensation).

Recovery Act

      On February 17, 2009, the President signed into law the American
Recovery and Reinvestment Act of 2009 (Recovery Act). The purposes of
the Recovery Act are to: (1) preserve and create jobs and promote
economic recovery; (2) assist those most impacted by the recession;
(3) provide investments needed to increase economic efficiency by spurring
technological advances in science and health; (4) invest in transportation,
environmental protection, and other infrastructure that will provide long
term economic benefits; and (5) stabilize state and local government
budgets, in order to avoid or minimize reductions in essential services and
counterproductive state and local tax increases.

      Through Recovery Act JAG funding, the Department of Justice (DOJ)
focused support on all components of the criminal justice system, including
multi-jurisdictional drug and gang task forces; crime prevention and
domestic violence programs; and courts, corrections, treatment, and justice
information sharing initiatives. Recovery Act JAG funded projects could
address crime by providing services directly to individuals and communities
and by improving the effectiveness and efficiency of criminal justice
systems, processes, and procedures.

Audit Purpose

      The purpose of this audit was to determine whether costs claimed
under these grants were allowable, reasonable, and in accordance with
applicable laws, regulations, guidelines, and terms and conditions of the
grant. The objective of our audit was to review performance in the following
areas: (1) grant requirements; (2) internal control environment; (3) cash
management; (4) program income; (5) grant expenditures; (6) property
management; (7) supplanting; (8) management of subrecipients and
contractors; (9) Financial Status Reports (FSR), Progress Reports, and
Recovery Act Reports; and (10) program performance and accomplishments.
We determined that property management and contractors were not
applicable to these grants.

     As shown in Exhibit 1, between October 2005 and March 2009, the
FDLE was awarded a total of $140,693,262 in funding under both the JAG

                                     2

and Recovery Act JAG Programs. However, based on the most recent grant
activity, we limited our audit to funding under Grant Numbers
2008-DJ-BX-0072, 2008-DJ-BX-0755, and 2009-SU-B9-0021.

 EXHIBIT 1.	 EDWARD BYRNE MEMORIAL JUSTICE ASSISTANCE
             GRANT PROGRAM GRANTS AWARDED TO THE FLORIDA
             DEPARTMENT OF LAW ENFORCEMENT

                              AWARD             AWARD
       GRANT AWARD          START DATE         END DATE    AWARD AMOUNT
     2006-DJ-BX-0036        10/01/2005        09/30/2009   $ 12,402,693
     2007-DJ-BX-0093        10/01/2006        09/30/2010     18,962,940
     2008-DJ-BX-0072        10/01/2007        09/30/2011      6,690,822
     2008-DJ-BX-0755        10/01/2007        09/30/2011        678,219
     2009-DJ-BX-1077        10/01/2008        09/30/2012     20,421,492
     2009-SU-B9-0021        03/01/2009        02/28/2013     81,537,096
                           Total:                          $140,693,262
 Source: OJP Grants Management System (GMS)

Background

      OJP’s mission is to increase public safety and improve the fair
administration of justice across America through innovative leadership and
programs. OJP seeks to accomplish its mission by disseminating
state-of-the-art knowledge and practices and by providing grants for the
implementation of these crime-fighting strategies. To support this mission,
the BJA provides leadership and assistance to local criminal justice programs
that improve and reinforce the nation’s criminal justice system, with goals to
reduce and prevent crime, violence, and drug abuse and to improve the way
in which the criminal justice system functions.

      The Governor of the state of Florida designated the FDLE as the State
Administering Agency for the JAG and the Recovery Act JAG program. FDLE
delivers services in five program areas: (1) Executive Direction and
Business Support Program, (2) Criminal Investigations and Forensic Science
Program, (3) Florida Capitol Police Program, (4) Criminal Justice Information
Program, and (5) Criminal Justice Professionalism Program. The Business
Support Program coordinates and provides the business activities necessary
for the daily operation of the agency. The Business Support Program
includes finance and accounting, human resources, budget, general services,
and criminal justice grants. The FDLE Office of Criminal Justice Grants
within the Business Support Program is responsible for the management of
federal grant programs awarded by DOJ to the state of Florida for the state
and local criminal justice community.


                                         3

OIG Audit Approach

       We tested compliance with what we consider to be the most important
conditions of the grant awards. Unless otherwise stated in our report, the
criteria we audit against are contained in the OJP Financial Guide, award
documents, Code of Federal Regulations, and Office of Management and
Budget Circulars. We tested the FDLE’s:

   •	 internal control environment to determine whether the internal
      controls in place for the processing and payment of funds were
      adequate to safeguard grant funds and ensure compliance with the
      terms and conditions of the grants;

   •	 grant drawdowns to determine whether grant drawdowns were
      adequately supported and if the FDLE was managing grant receipts in
      accordance with federal requirements;

   •	 grant expenditures to determine the accuracy and allowability of
      costs charged to the grants;

   •	 management of subrecipients to determine how the FDLE

      administered pass-through funds;


   •	 Financial Status Reports, Progress Reports, and Recovery Act
      Reports to determine if the required Financial Status Reports,
      Progress Reports, and Recovery Act Reports were submitted on time
      and accurately reflect grant activity; and

   •	 grant objectives and accomplishments to determine if the FDLE
      met or is capable of meeting the grants’ objectives.

      The results of our analysis are discussed in detail in the Findings
section of the report. Our audit objectives, scope, and methodology are
discussed in the Appendix.




                                      4

                                 FINDINGS


      We determined that the FDLE’s system of internal controls and the
      state of Florida’s financial management system adequately provided
      for segregation of duties, transaction traceability, system security, and
      limited access. We did not note any issues during our analysis of
      drawdowns. We found that the FDLE accurately accounted for and
      reported the receipt of program income. Transactions and personnel
      costs were properly authorized, classified, supported, and charged to
      the grants. The FDLE’s solicitation and awards processes for
      subrecipients appear to be fair and reasonable. The FDLE’s
      management of funds awarded to subrecipients appears sufficient.
      The FDLE properly and adequately monitors subrecipients. Financial
      Status Reports, Progress Reports, and Quarterly Recovery Act Reports
      were timely and accurate. The FDLE is adequately addressing the
      program outcomes for the JAG and Recovery Act JAG awards.

Internal Control Environment

      We reviewed the state of Florida’s Single Audit Report, policies and
procedures, and financial management system to assess the FDLE’s risk of
noncompliance with laws, regulations, guidelines, and terms and conditions
of the grants. We also interviewed individuals from the FDLE regarding
payroll, purchasing, and accounts payable and observed the financial
management system to further assess risk.

Single Audit

      According to Office of Management and Budget (OMB) Circular A-133,
non-federal entities that expend $500,000 or more in federal awards in a
year must have a single audit conducted. The state of Florida’s fiscal year is
from July 1 through June 30. For FY 2008, the state of Florida conducted a
single audit. We reviewed the FY 2008 Single Audit Report and found the
FDLE did not comply with subrecipient monitoring requirements for
Homeland Security Cluster grants. However, this finding did not pertain to
DOJ funds. We identified no problems with monitoring Byrne JAG
subrecipients. The FY 2009 Single Audit Report was published in
March 2010 and contained no findings related to the FDLE.

Financial Management System

      The FDLE prepares applications to BJA for grant funds and administers
grant funds received. The FDLE’s administration of grant funds includes

                                       5

receipt, review, processing, monitoring, progress and financial report review,
technical assistance, grant adjustments, accounting, auditing, and fund
disbursements. The FDLE uses an online system called the Subgrant
Information Management On-line (SIMON) to track subrecipient awards from
the application for funds to the closeout of the sub-award. Subrecipients
report expenditures in SIMON quarterly or monthly. FDLE staff review
expenditure reports from SIMON for compliance with approved subrecipient
award budget and federal program requirements.

      FDLE finance and accounting staff enter and track drawdowns through
a system called the Florida Accounting Information Resource (FLAIR). FLAIR
generates standard reports that summarize revenue and expenses for each
grant. FDLE finance and accounting staff compare these revenue and
expense reports to an OJP report of cash drawn. FDLE finance and
accounting staff process payments to subrecipients based on approved
expenditure reports and compare information in SIMON to actual drawdowns
and expenditures tracked in FLAIR.

Preparation for Recovery Act Funds

      The Recovery Act requires an unprecedented level of transparency and
accountability so Americans know where tax dollars are going and how those
dollars are being spent. To determine the FDLE’s ability to achieve the
accountability and transparency objectives of the Recovery Act, we
interviewed FDLE officials about their preparation for the receipt of Recovery
Act funds. FDLE officials told us that the Recovery Act grant would be
administered under its existing policies, procedures, and internal controls.
FDLE officials told us that the FDLE added several new requirements and
checklists for subrecipients to follow. We believe that the FDLE’s preparation
for the receipt of Recovery Act funds is an adequate first step to ensure
transparent and accurate reporting of how Recovery Act dollars are spent.

      We determined the FDLE provides an adequate system of internal
controls over the requirements of the JAG and Recovery Act JAG programs.
The system of controls also provides for segregation of duties, transaction
traceability, system security, and limited access to information technology
systems.

Drawdowns

      JAG award recipients are permitted to draw down the entire award
amount and place the funds in an interest-bearing account. Alternatively,
recipients may draw down funds on an as-needed basis. FDLE finance and
accounting staff drew down funds as needed to pay subrecipients as voucher

                                      6

reimbursements or cash advances. FDLE finance and accounting staff told
us that grant funds are deposited into a separate bank account. FDLE
finance and accounting staff told us and we confirmed that Recovery Act
funds, as well as other JAG funds, are separately identified within the
accounting records. As of April 6, 2010, FDLE finance and accounting staff
drew down: (1) $6,525,147 from Grant Number 2008-DJ-BX-0072, which
left a balance of $165,675; (2) $119,146 from Grant Number
2008-DJ-BX-0755, which left a balance of $559,073; and $11,326,102 from
Grant Number 2009-SU-B9-0021, which left a balance of $70,210,994. Our
analysis identified no concerns with the FDLE’s drawdowns of grant funds.

Program Income

      According to the OJP Financial Guide, all income generated as a direct
result of an agency-funded project is deemed program income. Interest
income on block grants, such as the JAG program, must be accounted for
and reported as program income. Program income may be used to further
program objectives, and any unexpended program income should be
remitted to OJP.

      The FDLE does not draw down funds prior to expenditure and therefore
does not generate any interest income. FDLE officials told us subrecipients
earn program income from seized assets resulting from the activities of local
task forces. This program income is reported to the FDLE for inclusion in the
FSRs but the funds are kept at the subrecipient level and are used for
program-related purposes. We determined that the subrecipients reported
program income on Grant Number 2008-DJ-BX-0072. As of
December 31, 2009, subrecipients reported a total of $625,656 in program
income to the FDLE. We verified the program income reported in the FSRs
to the program income reported by subrecipients in SIMON.

Grant Expenditures

      The OJP Financial Guide serves as a day-to-day management tool for
award recipients and subrecipients in administering grant programs by
establishing the factors affecting the allowability, reasonableness, and
allocability of both direct and indirect costs charged to DOJ grants.




                                      7

Personnel Expenses

       For Grant Numbers 2008-DJ-BX-0072 and 2009-SU-B9-0021, we
reviewed the names, positions, and pay rates for all employees paid from
grant funds to determine if that information appeared reasonable. 3 The
FDLE supplied a list of all employees charged to Grant Numbers
2008-DJ-BX-0072 and 2009-SU-B9-0021. From that list, we judgmentally
selected 10 employees to test from Grant Number 2008-DJ-BX-0072. Of the
10 employees selected from Grant Number 2008-DJ-BX-0072, 5 of those
same employees were chosen for testing under Grant Number
2009-SU-B9-0021 because they also charged time to this grant. For the 15
payroll transactions tested, we verified the employee information provided
by the FDLE in employee personnel files. We reviewed the pay rates for the
individuals and compared pay rates to other similar positions within the
FDLE that were not charged to the grants. The pay rates appeared
reasonable.

      Of the 15 payroll transactions selected to determine reasonableness of
pay rates, we identified no fictitious employees paid from grant funds. All
employees tested had current personnel files, pay stubs, and payroll
records. In addition, records showed that each employee had been
employed for a long period and worked on several different projects. Payroll
records indicated the FDLE was withholding taxes and other fringe benefits.

      For each of the 15 payroll transactions in our sample, we traced costs
to timesheets and official payroll records. We found that the personnel costs
charged to the two grants for the 10 individuals were allowable, correctly
computed, properly authorized, accurately recorded, and properly allocated
to the grants.

      Part-time individuals are classified under the category of Other
Personal Service and are not paid fringe benefits. Of the 15 payroll
transactions in our sample, 13 were full-time and 2 were part-time. For the
13 payroll transactions, we traced the fringe benefit elements to payroll
records and determined that the fringe benefits paid were reasonable. The
two part-time employees in our sample were not paid fringe benefits, and
therefore, we did not include them in our fringe benefits test.




      3
           FDLE finance and accounting staff had not draw down funds from Grant Number
2008-DJ-BX-0755 at the end of our audit work, and no personnel costs had been charged to
this grant.


                                           8

Other Direct Costs

      We reviewed the general ledger accounts for Grant Numbers
2008-DJ-BX-0072 and 2009-SU-B9-0021. We did not review the general
ledger account for Grant Number 2008-DJ-BX-0755 because the FDLE had
not charged expenses to the grant at the time of our audit work. 4

      At the time of our audit work, the FDLE had reimbursed $5,669,220 to
subrecipients from Grant Number 2008-DJ-BX-0072 and $2,961,325 to
subrecipients from Grant Number 2009-SU-B9-0021. We selected a
judgmental sample of 70 transactions totaling $356,065 from Grant Number
2008-DJ-BX-0072 and a judgmental sample of 29 transactions totaling
$2,286,710 from Grant Number 2009-SU-B9-0021. All 99 transactions that
we reviewed were properly authorized, classified, supported, and charged to
the two grants.

Indirect Costs

      Indirect costs are costs of an organization that are not readily
assignable to a particular project, but are necessary for the operation of the
organization and the performance of the project. The cost of operating and
maintaining facilities, depreciation, and administrative salaries are examples
of the types of costs that are usually treated as indirect.

       The FDLE applies an approved indirect cost rate to federal contracts
and grants. The FDLE uses full-time and part-time salaries as the basis for
its calculation of indirect costs.

      The FDLE charged indirect costs totaling $68,670 to Grant Number
2008-DJ-BX-0072 and $46,063 to Grant Number 2009-SU-B9-0021. We
tested a total of 10 indirect cost transactions, 5 from Grant Number
2008-DJ-BX-0072 and 5 from Grant Number 2009-SU-B9-0021 totaling
$93,786 for the period ended December 31, 2009, and determined that the
indirect cost rates were properly applied to base costs and accurately
calculated.

Supplanting

      According to OJP, federal funds must be used to supplement existing
state and local funds for program activities and must not replace those funds
that have been appropriated for the same purpose. To determine whether

      4
        As of April 6, 2010, the FDLE finance and accounting staff drew down $119,146
from Grant Number 2008-DJ-BX-0755.

                                           9

the FDLE used grant funds to supplant existing state and local funds for
program activities, we reviewed the state budgets for FYs 2008 and 2009.
We found no indication of supplanting of state funds with federal funds.

Management of Subrecipients

       State awarding agencies must ensure that all sub-awards made from
the JAG and Recovery Act JAG Programs meet certain legislative, regulatory,
and administrative requirements. As part of these requirements, the FDLE
must monitor subrecipient activities to assure compliance with federal law.
The FDLE made sub-awards to 369 subrecipients from Grant Numbers
2008-DJ-BX-0072 and 2009-SU-B9-0021. To determine whether the FDLE
adequately managed its subrecipients, we focused our review on categories
that we consider most critical to the effective management of subrecipients,
such as how the FDLE solicits subrecipients, makes sub-awards, provides
training and technical assistance, manages funds, and monitors and reports
subrecipient activities.

Solicitation Process

      The FDLE uses population and crime statistics to allocate JAG and
Recovery Act JAG funds on a formula basis to all 67 counties in the state of
Florida. The FDLE sends the program announcement to each chairperson of
the board of commissioners of the county, local mayors, local chiefs of
police, and sheriffs. The program announcement identifies each county’s
allocation of JAG funds.

        The FDLE’s Office of Criminal Justice Grants employs seven grant
managers on its staff. The FDLE assigns each grant manager multiple
counties for which the grant manager oversees program operations from
initial review of the grant application to award to closeout. FDLE policy
requires grant managers to complete an application review document that
consists of questions regarding the areas of general administration, project
overview, performance, finance, certifications, standard conditions, signature
pages, and other. An FDLE Planning Manager reviews the application before
the FDLE awards the applicant.

      We reviewed examples of the FDLE’s solicitations to Florida’s
subrecipients, and found the solicitations accurately and fully described the
grant program and the requirements of the program. The FDLE awards
funds to all subrecipients that apply for funding. However, the FDLE may
deny a subrecipient’s initial application if the application is not in agreement
with JAG and Recovery Act JAG guidelines. In such cases, the subrecipient


                                       10

would resubmit or amend the application until the application agreed with
JAG and Recovery Act JAG guidelines.

Awards Process

       The JAG formula program provides a state allocation consisting of a
minimum base allocation, and an additional amount determined by state
population and violent crime statistics. Once the state allocation is
calculated, 60 percent of the allocation is retained by the state and 40
percent is set aside for direct award to eligible local governments within the
state. Units of local government are eligible for direct award from BJA if
their share of violent crime results in an award of $10,000 or more. If a unit
of local government is not eligible for an award of at least $10,000, the
funds are added to the state’s award. The state is then required to pass
through a percentage of its funding to eligible units of local government.
This variable-pass-through-percentage is calculated by the Bureau of Justice
Statistics based on the state’s crime expenditures.

     The BJA awarded the FDLE $6,690,822 from Grant Number
2008-DJ-BX-0072 and $81,537,096 from Grant Number 2009-SU-B9-0021.
From the two awards, the FDLE deducted $214,180 from Grant Number
2008-DJ-BX-0072 and $896,898 from Grant Number 2009-SU-B9-0021 for
administrative costs. 5 The FDLE passed-through $658,125 from
Grant Number 2008-DJ-BX-0072 and $460,333 from Grant Number
2009-SU-B9-0021 to units of local government eligible for $10,000 or less.

      After deductions for administrative costs and funds are passed-through
to units of local government eligible for $10,000 or less, the BJA requires the
FDLE to subaward the remaining funds. The FDLE subawarded $3,912,205
to 67 counties from Grant Number 2008-DJ-BX-0072 and $51,996,643 to 67
counties from Grant Number 2009-SU-B9-0021. 6 The FDLE subawarded the
remaining $1,906,312 and $28,183,222 to state agencies from
Grant Numbers 2008-DJ-BX-0072 and 2009-SU-B9-0021, respectively. The
state of Florida Legislature determines which state agencies receive awards
and the amounts awarded.

      The FDLE uses a complex computer algorithm to calculate the share of
available grant funding for each of the 67 counties. The computer algorithm
calculates this share as a percentage for each county, which the FDLE

      5
         JAG and Recovery Act JAG awards allow grantees to deduct up to 10 percent for
administration costs.
      6
        Liberty and Calhoun Counties, Florida, combined applications, and the FDLE
subawarded a total of $49,180 to the two counties under Grant Number 2008-DJ-BX-0072.

                                           11

applies to available grant funding. To run the program, the FDLE annually
enters recent crime data, recent population data, and funds available for
allocation. The FDLE uses five main factors to determine how to distribute
funds among the counties. The five main factors are magnitude of the
crime, the crime trend, the seriousness of the crimes, the crime rate, and
the population. The program creates a score for each crime type in each
county, a score for each crime group in each county represented by the
crime types, a matrix score based on the crime group scores, and a county
and population score. The program uses these scores to calculate a
percentage allocation to each county. We obtained a description of this
computer program. We did not test the reliability of the computer program.

      We selected a sample of five subrecipients allocated funds from
Grant Number 2008-DJ-BX-0072 and five subrecipients allocated funds from
Grant Number 2009-SU-B9-0021. We selected the sample of 10
subrecipients to determine if the FDLE accurately applied the percentages
supplied by the computer program. We recalculated the allocation amount
for each of the 10 subrecipients based on the percentages supplied by the
computer program. We compared our calculations to the amounts that the
FDLE allocated to each of the 10 counties. We found the allocations to be
substantially the same.

     Based on the FDLE’s solicitation and awards process, the FDLE’s
methodology for granting funds appears to be fair and reasonable.

Training and Technical Assistance

       As the FDLE becomes aware of new federal requirements, it identifies
requirements and additional information is incorporated into grant
workshops. An FDLE official told us the last training event for subrecipients
held by the FDLE was in 2007. Officials told us that the FDLE could not offer
training in 2008 and 2009 because they were dealing with the unusually
large volume of Recovery Act awards. The official said that even though the
FDLE did not provide training to subrecipients in 2008 and 2009, FDLE staff
was readily available to handle questions and issues from subrecipients. The
information that the FDLE provides during training events is also included or
referenced in program announcements, the instructions and applications
provided to applicants, and during the FDLE’s on-site monitoring activities.
If needed, the FDLE makes procedural or other changes in the SIMON user
manuals or video tutorials. In addition, FDLE grant managers forward
e-mails and make telephone contact with subrecipients to provide additional
information.




                                     12

Management of Funds

      The FDLE approves a plan for subrecipient expenditure of grant funds
and it makes grant funds available to subrecipients on a reimbursement
basis. The FDLE requires subrecipients to submit support for
reimbursements requested. Advance funding is available for subrecipients,
but the FDLE must approve subrecipients’ request for advance funding. We
tested subrecipients’ payments as part of our testing of grant expenditures
(discussed in the Grant Expenditures section of this report) to determine if
the FDLE properly authorized, classified, supported, and charged the grant
payments. Based on our testing, we determined that the FDLE’s
management of funds appeared sufficient.

Monitoring

       Grant monitoring is an essential tool to ensure that grant programs are
implemented, objectives are achieved, and grant funds are properly
expended. To this end, OJP requires that sub-awards be monitored
throughout the life of the grant to ensure that: (1) the subrecipient
complies with the programmatic, administrative, and fiscal requirements of
the relevant statutes, regulations, policies, and guidelines; (2) programs
initiated by the subrecipient are carried out in a manner consistent with the
relevant statutes, regulations, policies, and guidelines of the program;
(3) the subrecipient is provided guidance on policies and procedures, grant
program requirements, general federal regulations, and basic programmatic,
administrative, and financial reporting requirements; and (4) any problems
that may impede the effective implementation of grant programs are
identified and resolved.

       According to the state of Florida’s Byrne Unit Monitoring Policies and
Procedures Manual, all open grants will be monitored no less than yearly for
compliance with administrative, financial, and programmatic requirements.
Monitoring may take the form of a desk review or an on-site review. 7 The
policies provide that each subrecipient should be monitored on-site no less
than every third year. High-risk subrecipients and subrecipients with known
compliance issues may be monitored more frequently. When an on-site visit
is made, the review covers all open grants and any closed JAG project from

       7
         A desk review consists of the FDLE reviewing subrecipients’ files to ensure reports
are current and complete, ensuring subrecipients received the reviews and addressed issues,
ensuring there are no outstanding issues from previous years, and requesting backup
documentation to support one expenditure report. An on-site review includes a meeting with
subrecipient staff, observing project activities, viewing purchased equipment, reviewing
backup documentation for reports submitted to the FDLE, and reviewing documentation in
support of one project expenditure report.

                                             13

the immediate prior year. On-site monitoring is to be completed by May 30
of each year. Desk monitoring is to be completed by June 30 of each year.
Monitoring reports are to be completed no more than 20 days after the date
of monitoring.

      We reviewed five desk review reports and five on-site review reports.
The reports demonstrated that the FDLE properly and adequately executed
its monitoring procedures.

Reports

      According to the OJP Financial Guide, award recipients are required to
submit both financial and program reports. These reports describe the
status of the funds and the project, compare actual accomplishments to the
objectives, and report other pertinent information. We reviewed the FSRs,
the Annual Progress Reports, and the Recovery Act Reports submitted by the
FDLE to determine whether each report was timely and accurate.

Subrecipient Reports

      Subrecipients input data into the FDLE’s SIMON system. The FDLE
uses this information from the SIMON system when completing its FSRs,
annual progress reports, and quarterly Recovery Act Reports for submission
to OJP.

Financial Status Reports

      According to the OJP Financial Guide, quarterly FSRs are due no later
than 45 days after the end of the quarter, with the final FSR due within
90 days after the end date of the award. Effective for the quarter ended
December 31, 2009, grantees must report expenditures online using the
Federal Financial Report Form (FFR-425) no later than 30 days after the end
of each calendar quarter. The final report must be submitted no later than
90 days following the end of the grant period.

      We reviewed the timeliness of submission of four FSRs for the quarters
ended March 31, 2009; June 30, 2009; September 30, 2009; and
December 31, 2009, for Grant Numbers 2008-DJ-BX-0072,
2008-DJ-BX-0755, and 2009-SU-B9-0021. We found that the FDLE finance
and accounting staff submitted the FSR for the quarter ended
March 31, 2009, for Grant Number 2009-SU-B9-0021, 13 days after the due
date. The report was due on May 15, 2009, and the FDLE finance and
accounting staff submitted the report on May 28, 2009. We did not take


                                     14

exception to this late report because only 1 out of 12 reports that we tested
was submitted late.

      We also reviewed each FSR to determine if it contained accurate
information for actual expenditures incurred during the reporting period and
cumulative interest income earned and expended. We found the FSRs
submitted under Grant Numbers 2008-DJ-BX-0072, 2008-DJ-BX-0755, and
2009-SU-B9-0021 were accurate when compared to the FDLE’s official
accounting records.

Annual Progress Reports

      OJP requires all JAG recipients to submit annual progress reports. For
FY 2008 and prior, the annual reporting period for all state and local JAG
awards is January 1 through December 31, with reports due
March 31. For FY 2009 and forward, including Recovery Act JAG grants,
state recipients must submit annual progress reports and quarterly
Performance Measurement Tool (PMT) reports. The annual progress
reporting period is the award start date through September 30, with reports
due November 29. The quarterly PMT reports are due on the 30th of the
month following the close of a quarter. State recipients may use the four
quarterly PMT reports to satisfy the annual reporting requirement by
uploading the reports into the OJP Grant Management System.

      We reviewed the most recent Progress Report submitted for
Grant Number 2008-DJ-BX-0755 and the first PMT Report submitted for
Grant Number 2009-SU-B9-0021. We found that the FDLE submitted the
reports in a timely manner.

     We evaluated the accuracy of Progress Reports for the last full year of
coverage for Grant Numbers 2008-DJ-BX-0072, 2008-DJ-BX-0755, and
2009-SU-B9-0021. We verified the reports to source documentation
maintained by the FDLE in SIMON. We determined that the reports
accurately reflected information contained in the SIMON system.

Quarterly Recovery Act Reports

      In addition to standard reporting requirements, grantees receiving
Recovery Act funding must also submit quarterly reports, which require both
financial and programmatic data specific to Recovery Act activities.




                                     15

According to BJA and OMB guidance, Recovery Act Reports are due 10 days
after the close of each quarter. 8

      We reviewed the Recovery Act Reports for the quarters ended
September 30, 2009, and December 31, 2009, for timeliness and found that
the FDLE submitted each report timely. According to OMB guidance, the
reports aim to provide transparency into the use of these funds. The
Recovery Act Reports are required to include the following information:

   •	 total amount of funds received and the amount of funds spent on
      projects and activities;

   •	 list of those projects and activities funded by name, including a

      description, completion status, and estimates on jobs created or

      retained; and


   •	 details on sub-awards and other payments.

      In the Recovery Act Reports, the data pertaining to jobs created and
retained is reported as Full Time Equivalents (FTE). According to OMB
Memorandum 10-08, dated December 18, 2009, the formula for calculating
FTEs is represented as follows.

     TOTAL NUMBER OF HOURS WORKED                  QUARTERLY HOURS
      AND FUNDED BY RECOVERY ACT            ÷       IN A FULL-TIME         =     FTES
       WITHIN REPORTING QUARTER                       SCHEDULE 9


       We reviewed the Recovery Act Report required for the quarter ended
December 31, 2009, for accuracy. The FDLE reported 84.08 FTEs retained
and created. To verify the total number of FTEs reported as retained and
created, we requested the supporting documentation the FDLE received from
all subrecipients for the job retention and creation data. We used this data
to verify the number of hours reported and to recalculate the number of
FTEs retained and created. The data supplied by the FDLE supported the
positions reported as retained and created. The Recovery Act Report
covering the period October 1, 2009, through December 31, 2009, was
accurate.




       8
         According to FederalReporting.gov guidance, the recipient reporting due date of
January 10, 2010, was extended to January 22, 2010.
       9
         OMB Memorandum 10-08 describes the calculation for Quarterly Hours in a
Full-Time Schedule as 520 hours (2,080 hours annually divided by 4 quarters).

                                             16

Program Performance and Accomplishments

       The FDLE seeks to ensure funds are used in accordance with JAG
requirements by first awarding subgrants within the allowable JAG purpose
areas described in the BJA solicitation. The purpose areas are described in
the FDLE’s JAG solicitations. The FDLE also monitors subrecipients in an
effort to ensure grant funds are used in accordance with the sub-award.
Monitoring is through on-site reviews of grant project compliance, desk
reviews of grant project compliance, and reviews of subrecipient progress
and financial reports.

      To evaluate program performance under Grant Numbers
2008-DJ-BX-0072, 2008-DJ-BX-0755, and 2009-SU-B9-0021, we
interviewed FDLE officials regarding the expected program outcomes.
According to the purpose statements provided by the FDLE, the FDLE used
the three grants to:

  •	 target anti-terrorism issues, eradicate marijuana and shut down meth
     labs, as well as address white collar, domestic violence, and child
     abuse;

  •	 enhance the prosecution of white-collar, organized, and gang related
     crimes;

  •	 start or enhance anti-drug and anti-gang education programs;

  •	 support programs designed to provide additional public correctional
     resources and improve the corrections system, including treatment in
     prisons and jails, and intensive supervision programs for probationers
     and parolees;

  •	 identify and meet the treatment needs of adult and juvenile drug-
     dependent and alcohol-dependent offenders;

  •	 provide support for all components of the criminal justice information
     system; and

  •	 provide assistance to victims and witnesses.

       Additional purposes of the Recovery Act are to preserve and create
jobs in the following seven JAG purpose areas:

  •	 law enforcement programs;


                                     17

  •	 prosecution and court programs;

  •	 prevention and education programs;

  •	 corrections and community corrections programs;

  •	 drug treatment and enforcement programs; and

  •	 crime victim and witness programs.

       To evaluate the FDLE’s program performance, we interviewed FDLE
officials about program goals and objectives, reviewed its application and
award of the JAG and Recovery Act JAG Program, and reviewed a Progress
Report for Grant Number 2008-DJ-BX-0072. At the time of our audit work,
the FDLE had not reported accomplishments for Grant Numbers
2008-DJ-BX-0755 and 2009-SU-B9-0021. We asked the FDLE to provide
supporting documentation for six performance accomplishments identified in
the progress report for Grant Number 2008-DJ-BX-0072. The FDLE provided
supporting documentation for the six performance measures. Based on our
interview with FDLE officials, review of applications and awards, and review
of the Progress Report, the FDLE is adequately addressing the program
outcomes for the JAG and Recovery Act JAG awards.

Conclusion

      We examined the FDLE’s accounting records, FSRs, Progress Reports,
Recovery Act Reports, and operating policies and procedures and found the
following.

  •	 The financial management system provides for segregation of duties,
     transaction traceability, system security, and limited access.

  •	 The FDLE accounted for and reported program income accurately.

  •	 The other direct cost transactions that we reviewed were properly
     authorized, classified, supported, and charged to the grants.

  •	 All costs associated with payroll and fringe benefits for the pay periods
     reviewed were supported and reasonable.

  •	 The FSRs reviewed under the grants were submitted in a timely

     manner and were accurate. 




                                     18

   •	 The FDLE’s methodology for granting funds to subrecipients appears to
      be fair and reasonable.

   •	 The FDLE’s monitoring activities and management of subrecipient files
      appeared sufficient.

   •	    The FDLE is adequately addressing the program outcomes for the JAG
        and Recovery Act JAG awards.

        Overall, we believe that the FDLE’s policies and procedures, if followed,
will allow adequate management of Recovery Act funds.




                                       19

                                                               APPENDIX I

               OBJECTIVES, SCOPE, AND METHODOLOGY


      The objective of our audit was to review performance in the
following areas: (1) grant requirements; (2) internal control
environment; (3) cash management; (4) program income; (5) grant
expenditures; (6) property management; (7) supplanting;
(8) management of subrecipients and contractors; (9) Financial Status
Reports (FSR), Progress Reports, and Recovery Act Reports; and
(10) program performance and accomplishments. We determined that
indirect costs, management of contractors, and property management
were not applicable to these grants.

      We conducted this audit in accordance with Generally Accepted
Government Auditing Standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide
a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives.

      Our audit scope covered JAG Grant Numbers 2006-DJ-BX-0036,
2007-DJ-BX-0093, 2008-DJ-BX-0072, 2008-DJ-BX-0755, 2009-DJ-BX-1077,
and the Recovery Act JAG Grant Number 2009-SU-B9-0021. For our
transaction testing, we limited our audit to funding under
Grant Numbers 2008-DJ-BX-0072 and 2009-SU-B9-0021. Because of
limited grant activity, we did not test transactions charged to Grant Numbers
2008-DJ-BX-0755 and 2009-DJ-BX-1077. We had an adequate number of
transactions to test from the other two grants so we did not select any
transactions from Grant Numbers 2006-DJ-BX-0036 and 2007-DJ-BX-0093.
We tested compliance with what we consider to be the most important
conditions of the grants. Unless otherwise stated in our report, the criteria
we audit against are contained in the OJP Financial Guide and the award
documents.

       In conducting our audit, we performed sample testing in five areas,
which were: grant expenditures, including personnel; management of
subrecipients; FSRs; Progress Reports; and Recovery Act Reports. In this
effort, we employed a judgmental sampling design to obtain broad exposure
to numerous facets of the grants reviewed, such as dollar amounts or




                                     20

projection of the test results to the universe from which the samples were
selected.

      In addition, we assessed the FDLE’s monitoring of subrecipients;
reviewed the timeliness and accuracy of FSRs, Progress Reports, and
Recovery Act Reports; and evaluated performance to grant goals and
objectives. However, we did not test the reliability of the financial
management system as a whole and reliance on computer-based data was
not significant to our objectives.




                                     21

                                                                                              APPENDIX II

        OFFICE OF JUSTICE PROGRAMS’
       RESPONSE TO THE DRAFT REPORT


                                                        U.s. lRpartment of Justice

                                                        Office of Ju~tice Programs

                                                        Office af Audil. Assessment. und Mmwgemem


                                                        _"",",".c. 1inJJ
JUL 1 5 1010

MEMORANDUM TO:                Ferris Il. Polk
                              Regional Audit Manager
                              Officc of the Inspector General


FROM:               (r ;:;;;:gi:::,::,:O~ffi~O/-~
                                         "
SUBJECT:                      Response 10 the Draft A     it Re 11. Office ofJustict Progmms.
                              Bureall <ifJustice Assi:.ta     .,/)mrd Byrne Mernariul Justice
                              AssislOnce Grant Program Grants Awarded ta Ihe Florida
                              Department of Law Enfarcement. Tallahas.lte. Florida

This mcmor:tr\dum is in response to your correspondence dated June 21. 2010. transmitting the
above·referenced draft audit report for the Florida Ixpartmenl of Law Enforcement, The draft
report docs nOl comain any recommendations. The Office of Justice Programs has reviewed lhe
draft audit rcpon and does IIOt have any comments.

We apprcciate the opportunity 10 review and comment on the drafl report. Iryou have any
questions or require additional information, please contact Jeffery A. Iialey, Deputy Director,
Audit and Review Division, on (202) 616·2936.

ce:    leffery A, Haley
       Deputy DireclOT, Audit and Revicw Division
       omce of Audit. Assessment, and Manageml'llt

       AmaJlda LoCicero
       Budget Analyst
       Bureau of Justice Assistance

       Naydine Fulton·Jones
       State Policy Advisor
       Bureau of Justice Assistance

       Tracy Lee·Williams
       "ranT Proemm S""ci~I ; ~1
       Bureau of Justice Assistance




                                                 22

cc:   Riehard P. Theis
      Assistant Director
      Audit Liaison Group
      Justice Managemenl Division

      OJP Executive Secretarial
      Control Number 20 10 12 17




                                          2




                                    23

                                                            APPENDIX III

          OFFICE OF THE INSPECTOR GENERAL

     ANALYSIS AND SUMMARY OF ACTIONS NECESSARY

                   TO CLOSE REPORT


      The OIG provided a draft of this audit report to the FDLE and OJP. The
FDLE declined to provide comments and OJP’s comments are incorporated in
Appendix II of this final report. This report contains no recommendations
and is issued closed.




                                    24

